                        DEPARTMENT OF DEFENSE




TECHNICAL ASSESSMENT

 REPORT ON THE INQUIRY ON MAGNETIC PARTICLE INSPECTION
             FOR NON-DESTRUCTIVE TESTING


                                            -
    REPORT NO. 92-133            SEPTEMBER 2, 1992




  . Office of/he
 Inspector General
The following acronyms are used in this report
MIL-STD ..••......•......• : . . . . . . . . . . . . . • . . • . . . . . Mili tary Standard
USAMTL ••••••••••••••••••• U.S. Army Material Technology Laboratory
ASTM ••••••••••••••••••• American society for Testing and Materials
SAE ...•.•.••.....•••.....••....• Society of Automotive Engineering
AMS ............................ Aerospace Materials Specifica'tions
NIST •••••••• National Institute for standardization and Technology
AFB ••• •' •••••.•••••••.••••••.••••••.•••.•••••••..• •• Air Force Base
                       INSPECTOR GENERAL
                         DEPARTMENT OF DEFENSE
                           400 ARMY NAVY DRIVE
                      ARLINGTON. VIRGINIA 22202·2884




REPORT NO. 92-133·                                     September 2, 1992
MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT:   Report on the Inquiry on Magnetic Particle
           Inspection for Non-Destructive Testing
           (Project No. 2PT-5001)

     This report has been prepared in response to a request by
Congressman David Dreier of California to assess· allegations made
by one of his constituents that a propo~ed revision to a Military
Standard, MIL-STD-1949, "Magnetic Particle Inspection for Non-
Destructive Testing," was flawed.    The allegations stated that
the Government organization responsible for issuing MIL-STD-1949
did not have the facilities and qualified personnel to review the
specification and to validate or negate comments received
concerning MIL-STD-1949.    The author of ·the allegations also
stated that the Department of Defense plans to replace some
military standards with what he called "consensus documents". He
believed· the implications of these plans should be explored
further.
     The assessment was conducted from October 14, 1991 to
April 6, 1992.     Our overall objectives were to determine the
validity of the allegations and to determine if proper procedures
were being followed in the review and validation of MIL-STD-1949.
The current version, MIL-STD-1949A, was issued in May 1989 and
has been accepted by the Department of Defense and the Non-
Destructive. Testing community.
     We interviewed the author of the allegations; personnel in
the Engineering Standardization Branch of the U.S. Army Material
Technology Laboratory (USAMTL), the proponent of MIL-STD-1949;
and other experts on Magnetic Particle Inspection.      We also
reviewed applicable· documentation.
      Not all of the allegations could be substantiated; however,
we found several valid points that resulted in recommendations.
These   recommendations are directed toward         improving the
efficiency and range of applicability of Magnetic Particle
Inspection which· should improve the government standard.
     Our inquiry disclosed problems with the still-current MIL-
STD-1949A. and with the third draft version of a revision, called
MIL-STD-1949B.    Test results, using the latest version of MIL-
STD-1949, may not show all detectable flaws. We recommended that
the Commander, USAMTL, immediately issue an addendum to MIL-STD-
1949A, highlighting the problem areas and alerting the· user
community to potential problems with use of the illustrations and
formulas that could lead to erroneous test results.       We also
recommended    replacing the illustrations and formulas with the
correct method of calculation.
     Because no study has ever been undertaken to· determine the
effectiveness of MIL-STD-1949, application of the standard may
result in a wide difference in the probability of detection of       (
flaws.   We recommended that the Commander, USAMTL, prepare a
prioritized list of the identified research efforts, conduct the
necessary research, and develop an improved standard.    We also
recommended that the Commander, U. S. Army Laboratory Command,
identify funding for the research efforts necessary to improve
MIL-STD-1949.
     We could not sUbs·tantiate the allegation that the Government
does not have facilities and qualified personnel to validate the
standard.   Al though some of the Government equipment is not
state-of-the-art, we determined that it is adequate to perform
validation. We. also determined that the Government has qualified
personnel to validate the standard.
     The courtesies extended to the staff during the inquiry are
appreciated.      Management  comments   on  the   draft   report
recommendations were responsive and further comments are not
required.   The agreed-upon actions will be tracked and verified
by the Assistant Inspector General for Analysis and Followup. If
you have any questions concerning the report, please contact Mr.
Kenneth H. Stavenjord on (703) 614-6297 or Mr. Jacob E. Rabatin
on (703) 614-6300.




                                   Robert J. Lieberman
                                Assistant Inspector General
                                       for Auditing
Enclosure
cc:
Commander,   u.s.   Army Materiel Command
Commander,   u.s.   Army Laboratory Command




                                   ii
                 REPORT ON THE INOUIRY ON
               MAGNETIC PARTICLE INSPECTION
               FOR NON-DESTRUCTIVE TESTING
                        TABLE OF CONTENTS



                                                      Page
. TRANSMITTAL MEMORANDUM/EXECUTIVE SUMMARY              i
 PART I - INTRODUCTION                                  1
Background                                              1
Objectives and Scope                                    1
 PART II - OBSERVATIONS AND RECOMMENDATIONS             3
 PART III - ALLEGATIONS AND REVIEW COMMENTS            11
APPENDIX A - Letter from congressman David Dreier      21
APPENDIX B - Management Comments from Department       23
             of the Army
APPENDIX C - Report Distribution                       31




                               Prepared by:
                               Technical Assessment Division
                .   ,          Project No. 2PT-5001
•
              REPORT ON THE INOUIRY ON MAGNETIC PARTICLE
                INSPECTION FOR NON-DESTRUCTIVE TESTING

                        PART I -INTRODUCTION

 Background
This report has been prepared in response to a request by
Congressman David Dreier of California to assess allegations made
by one of his constituents that MIL-STD-1949, "Magnetic Particle
Inspection for Non-Dest~ctive Testing," was f:j.awed.    Magnetic
Particle Inspection is a non-destructive test method for
detecting flaws in magnetic materials.       It is widely used
throughout the Department of Defense at rework facilities and
manufacturing facilities    for inspection and acceptance of
material that is used in critical applications.
  The allegations presented to congressman Dreier pointed out areas
  that were considered to have technical errors and others that
  were judged to be worthy of further study to strengthen MIL-STD-
. 1949.   The author of the allegations stated that the Government
  organization responsible for issuing MIL-STD-1949 did not have
  the   facilities .and    qualified   personnel   to  review   the
  sp·ecification and to validate or negate comments received
  concerning MIL-STD-1949,   He also stated that the Department of
  Defense plan, to replace military standards with consensus
  documents, should be explored further.
The original version of MIL-STD-1949 was issued August 1985, and
the current version, MIL-STD-1949A, was issued in May 1989. MIL-
STD-1949A is in the process of being replaced by the American
Society for Testing and Materials (ASTM) document, ASTM E1444,
which is an exact duplicate with the exception that it is in the
ASTM format.   The Society of Automotive Engineers (SAE) is now
rewriting the Aerospace Materials Specification (AMS) document,
AMS 2640J, to duplicate MIL-STD-1949A. These documents have been
accepted by the Department of Defense, many Defense contractors,
ASTM, and SAE.                          .

Objectives and scope
Our overall objectives were to determine the validity of the
allegations and to determine if proper procedures were being
followed in the review and .validation of MIL-STD-1949.      The
review was conducted by engineers assigned to the Technical
Assessment Division, Office of the Inspector General, during the
period October 14, 1991 to April 6, .1992.
We conducted our inquiry by interviewing the author of the
allegations, personnel in the Government agency responsible for
MIL-STD-1949, and other experts on Magnetic Particle Inspection.
We also reviewed applicable documents.
We reviewed the procedure for updating MIL-STD-1949 used by the
Engine~ring standardization Branch of the U. S.   Army Material
Technology Laboratory (USAMTL), the proponent of MIL-STD-1949,
and visited its Magnetic Particle Inspection laboratory in
Watertown, Massachusetts.   We discussed the concerns of the
author of the allegations with personnel in the Engineering
standardization Branch.
We visited the National Institute for Standardization and
Technology-Metallurgy Division, Gaithersburg, Maryland, USAMTL's
chief consultant on MIL-STD-1949, and discussed its role in the
validation of MIL-STD-1949.
Although not all of the allegations were found to be supportable,
several have resulted in recommendations for research directed
toward improving the' efficiency and range of applicability of
Magnetic Particle Inspection that will improve the application of
MIL-STD-1949.
The results of our inquiry are presented in the following
observations and recommendations.    Part III of the report is a
compilation of the specific allegations and our comments relating
to each, some of which contain additional recommendations for
improvements to the MIL-STD.




                              2
PART I I - OBSERVATIONS AND RECOMMENDATIONS
                          OBSERVATION A
The published version of MIL-STD-1949 conta~ns problem areas.
The problem areas were due to lack of r~gorous oversight,
acceptance. of rule-of-thumb criteria without reservation by the
Magnetic    particle    Inspection  community,  and   nonrigorous
calculation of some of the formulas. Use of the present version
of MIL-STD-1949 without understanding 'that the illustrations and
formulas    are   only    approximations,  useful   for    initial
establishment of magnetization levels, could lead to failure in
the detection of flaws in the test articles.     Test results may
not show all detectable flaws, since the proper application of
the present standard depends on training of the writers and users
of the test procedures.
                      DISCUSSION OF DETAILS
The problem areas can be placed in three categories as follows:
Oversight.    MIL-STD-1949 (paragraph 5.7.3), which describes
fabricated   test    parts   with   artificial   discontinuities,
erroneously refers to the KETOS Ring, which is not used as a test
part to establish    proper magnetization levels. The KETOS Ring
is used for characterization of the magnetic particles used for
testing.   An attempt to use a KETOS Rin·g to calibrate a setup
would result in an erroneous magnetization level.      This is a
simple mistake, which    could lead to faulty test results, and
should be corrected.

Effective Region of Inspection. Figure 3.in MIL-STD-1949, which
described an offset central conductor, had no theoretical basis
for stating that the effective region of inspection is equal to
four times the diameter of the conductor. Figures 4 and 5, which
present the effective region of inspection, did not take into
account the magnetic permeability of the test article and
therefore were only approximations..      This condition .exists
because there has not been sufficient effort expended to
determine the exact effective region of inspection. The rules of
thumb, which were empirically developed     by field experience,
have been accepted without reservation by the community since the
early days of Magnetic Particle Inspection.   At the yearly ASTM
meetings, there had been ample opportuni ty to correct these
problem areas but they had not been addressed. . Figures 3 through
5 provided guidance for those who did not have the capability to
do the necessary calculations to determine the effective area of
inspection. These figures were useful for a rough approximation
of the effective area of inspection, but cannot be applied to the
general case without an understanding of the limitations of the
figures and formulas.                                       .

Nonrigorous Calculation.     MIL-STD-1949 (paragraphs 5.3.1.4.1
through 5.3.1.4.4) present formulas for calculating ampere-turns

                               3
  for establishing the proper magnetic field strength for testing.
  The problem with the formulas is ,that they are simplistic
  calculations that do not take into account the magnetic
  permeability of the test article and can result in over-
 'magnetization of the part. To provide accurate results, Magnetic
  Particle Inspection requires careful analysis that takes    into
  account both the magnetic properties and geometry of the part
  under test. The formulas were developed when Magnetic Particle
  Inspection was carried out more as an art than a science.
  Advances in the fields of materials and manufacturing have
  created a need to extend the formulas, thereby increasing the
  usefulness of Magnetic Particle Inspection.
 The above problems are not acknowledged by USAMTL and have not
 been corrected, but USAMTL recognizes that improvements in MIL-
 STD-1949A are desirable to improve the efficiency, applicability
 and cost-effectiveness of Magnetic Particle Inspection.   USAMTL
 acknowledged only minor typographical errors, which are being
 corrected.

 Use of the present version of MIL-STD-1949 without question could,
 lead to failure in the detection of flaws in the test articles.
 Test results may not show all detectable flaws, since the proper
 application of the present standard depends on training of the
 writers and users of the test procedures.


               RECOMMENDATIONS FOR CORRECTIVE ACTION

 We recommend that the Commander, USAMTL:

 1. Immediately issue an addendum to MIL-STD-1949 highlighting
 the above areas and alerting the user community to potential
 problems with use of the illustrations and formulas, when they do
 not apply, that could lead to erroneous test results.
 2. Replace the above illustrations and formulas with the correct
,method of calculation for the effective area of inspection and
 the correct magnetization levels when the necessary work has been
 done to correct the problem areas.

                        MANAGEMENT COMMENTS

 The Director, USAMTL, concurred in principle with Recommendation
 A.1. MIL-STD-i949A is in the cancellation, process. Its proposed
 replacement document, ASTM E1444, has been issued by the American
,Society for Testing and Materials.      Revisions to ASTM E1444
 covering the problem areas of oversight, effective region of
 inspection, and nonrigorous calculation, as discussed in the
 draft report, were submitted by USAMTL personnel to the ASTM on
 June 15, 1992.   The ASTM will decide on the modifications for a
 second 'revision by a society ballot.      The current proposed
 revision   of ASTM    E1444-91  has  already passed    the ASTM
 subcommittee ballot.   Incorporation of the revision is expected

                                4
to be c;tccepted without delay.    Should MIL-STD-1949A not be
promptly canceled, an addendum to the standard will be issued as
outlined in the enclosure (Appendix B - Management Comments from
Department of the Army).
The Director, USAMTL, concurred ,in part with Recommendation A. 2.
and stated that the present method of, calculation is the best
available.   However, once the pertinent research covered by
Observation B is completed, revised illustrations and formulas
will be submitted to the ASTM correcting or changing the method
of calculation for the effective area of the inspection and
magnetization levels for incorporation in ASTM E1444.

                RESPONSE TO MANAGEMENT COMMENTS

The USAMTL actions in revising ASTM E1444 meet the intent of the
recommendation A;l.      USAMTL has submitted the recommended
revisions to ASTM. The ASTM decision will not be known prior to
January 1993.     However, since ASTM docUments are not under
Government    control,  we    suggest USAMTL  ensure   that  the
modifications are incorporated into the next revision of ASTM
E1444 before accepting it as a replacement for MIL-STD-1949.
Should MIL-STD-1949 be used for more than a year, or should the
proposed ,revision of ASTM E1444 not be accepted, we suggest the'
proposed addendum be added to all copies of MIL-STD-1949A and
ASTM' E1444-91 for DoD users.
The USAMTL's proposed   action       also   meets   the   intent   of   the
recommendation A.2.




                                 5
                           •
                            OBSERVATION B

 The Magnetic Particle Inspection field requires more research to
 make MIL-STD-1949 a definitive document. While it is definitive
 concerning the requirements for procedures used to ~perform
 Magnetic Particle Inspection, the re·quirements for quality
 control, the manner in which records are to be kept, and the way
 in which inspected parts are to be identified, it does not
 address nor reference limitations inherent in application of
 Magnetic Particle Inspection based on MIL-STD-1949. Because no
 study has ever been undertaken to determine the effectivity of
 MIL-STD-1949, application of the standard may result in a wide
 difference in the probability of detection of flaws.
                        DISCUSSION OF DETAILS

 MIL-STD-1949 provided guidelines or instructions for writing test
 procedures. Each Magnetic Particle Inspection case required the
 ~nspector to develop a test procedure to achieve the  probability
 of flaw detection specified by the designer of the part.     This
 may result in a wide difference in the probability of detection
 of flaws, depending on the capabilities of the writer of the test
 procedure and performer of the testing.       The last study of
 effectivity of Magnetic Particle Inspection was performed in 1973
 prior to the issuance of MIL-STD-1949. It is not known i f MIL-
 STD-1949 has corrected the cause of poor performance found by the
 1973 study since no test had been conducted based on it.
   MIL-STD-1949 did not provide guidance for reviewing the test
   procedures generated by the magnetic particle inspectors to
 ~ determine i f the probability of detection being achieved with
   those procedures met the requirements for flaw detection.       In
   order to~. determine if the procedure is effective, the test must
   be conducted •. The designer of a part must make the determination
   of flaw tolerance and then determine what sort of non-destructive
   testing is required. To provide a benchmark the designer can use
   to determine if Magnetic Particle Inspection will· be effective in
   finding flaws, MIL-STD-1949 should provide guidance as to the
   range of flaws that might be expected to be found using Magnetic
. Particle .Inspection.
Magnetic Particle Inspection is one of the most extensively used
non-destructive techniques.   USAMTL's experience with MIL-STD-
1949 and the work of many individuals have emphasized that there
are many areas where DoD could do useful research on Magnetic
Particle Inspection to enhance its performance. USAMTL personnel
recognize the need for further research and have suggested the
following near-term research projects on Magnetic Particle
Inspection.




                                 6
 1'. Develop improved and reliable methods for the' characteriza-
 tion of magnetic particle materials.
 One'defect in the current method for characterizing particles is
 that fluorescent brightness is not checked under standardized
 conditions.
 2.  Develop methods for specifying the surface condition of the
 test article that will meet all required acceptance criteria.
 The detection threshold of magnetic particle inspection varies
 signifioantly with the surface texture. The general requirement
 that the surface be "essentially smooth, clean, dry, and free
 from oil, scale, or other contaminants" is not a' sufficient
 precaution.   This is especiallY crucial for weld inspection.
 Surface condition may also affect whether or not shims can be
 effectively used to establish correct magnetization.
 3.  Develop criteria for relating magnetic properties to defect
 detectability.
  The only ,current requirement is that parts be ferromagnetic.
  This is not sufficient according to several experts. A data base
  should be produce~ giving the magnetic properties of steel as a
  function of composition and thermomechanical treatment and the
'magnetization levels required on each to meet given acceptance
  criteria.  Required magnetization levels depend on many details
',of the ferromagnetic properties, and according to experts, some
  ferromagnetic materials cannot be effectively inspected using
  Magnetic Particle Inspection.
4.     Perform fundamental studies on how the leakage field,
particle size and, shape, bias field, and particle and part
retentivity, interact to form and hold magnetic particles in
place.
The results would be used to define a performance standard for
Magnetic Particle Inspection.
5.   Investigate the use of Hall Effect, p'robes to measure both
field intensity and directionunde,r dynamic conditions.
The ,results would be used to specify magnetization levels,
direction, and waveforms for ac, 'dc, and 'multidirectional
magnetization techniques.
6.    Develop computer techniques to specify magnetization levels.
Correct magnetization levels for a part of any geometry can be
calculated using finite element analysis ,coupled with a detailed
knowledge of 'material magnetic properties.




                                 7
 7.   Develop performance    standards   and improved methods   for
 characterizing shims •
. Properly calibrated shims would enhance performance of magnetic
  particle inspection by assuring the proper level of magnetization
  of parts with complex geometries.
 8.  Develop improved guidelines to use for acceptance require-
 ments.
 The flaw detection capability of Magnetic Particle Inspection for
 materials would be specified so that performance can be predicted
 with confidence. .
 The foregoing .list, while not exhaustive, provides an insight
 into areas of research that would aid the understanding of the
 Magnetic Particle Inspection technique. At present, the Magnetic
 Particle Inspection field depends heavily on rules of thumb
 developed over many years.    Use of the present version of MIL-
 STD-1949 results in too much uncertainty regarding the results of
 the testing. While training of the inspectors and developers of
 test procedures has helped to produce more dependable results, a
 more definitive document would enhance the quality of the
 process.
               RECOMMENDATIONS FOR CORRECTIVE ACTION
 1.' We recommend that the commander, USAMTL, in conjunction with
 the National Institute for standardization and Technology,
 prepare a prioritized list of the eigl;lt identified research
 efforts, conduct the necessary research, and develop an improved
 standard that will enhance the understa.nding of and implement a
 precise scientific approach to the Magnetic Particle Inspection
 field.
 2. We recommend that the Commander, U.S. Army Laboratory
 Command, identify funding for the research efforts necessary to
 improve MIL-STD-1949.
                        MANAGEMENT COMMENTS
  The Director, USAMTL, concurred in part with Recommendation B.l.
  USAMTL,   in conjunction 'with the National        Institute for
. standardization and Technology (NIST), has prioritized the list
  of eight identified research efforts recommended in the draft
  report.   The     research proj ects compiled by NIST constitute
  important work needed to improve the theory and understanding of
  Magnetic Particle Inspection; however, there is no guarantee that
  the work will improve the probability of detection, which is the
  key to successful testing. USAMTL cannot consider the research a
  near-term effort.   Most of the research will require the long-
  term commitment of highly trained personnel.      Current testing
  procedures outlined in MIL-STD-1949A or ASTM E1444-91 are
  satisfactory for most users, and USAMTL has received no reports

                                8
of failures traceable to errors or lack of clarity in MIL-STD-
1949.   Responsible USAMTL personnel believe that the proposed
research should be accomplished on a time available, funding
available basis, and extend over several years.     The proposed
projects are no more important than many other projects in other
fields being worked on by USAMTL personneL     Since new funding
will be needed, USAMTL will estimate the levels of funding and
time needed for· the research and forward the estimates to the
U.S. Army Laboratory Command for funding consideration by July
31, 1992.
The Director,    U.S.  Army Laboratory Command,    concurred in
principle with Recommendation ·B.2.      Upon receipt of USAMTL
estimates of the levels of funding and time needed for the
research to make improvements in ASTM E1444 (MIL-STD-1949), the
U. S. Army Laboratory Command will consider whether to fund the
research within the overall context of laboratory priorities.
                RESPONSE TO MANAGEMENT COMMENTS

Regarding Recommendation B.1, the USAMTL will estimate the levels
of funding and time needed for the research and forward the
estimates to the U.S. Army Laboratory Command for funding
consideration.     This   action   meets  the    intent  of   the
recommendation.  The comments on Recommendation B. 2. were also
responsive.




                                9
PART III - ALLEGATIONS AND REVIEW COMMENTS
                          ALLEGATION 1.
MIL-STD-1949B (3rd submission for approval) is flawed.        In
letters to USAMTL" dated August 31, 1988, and May 24, 1991, and
during our interview, the author of the allegations pointed out
several flaws in MIL-STD-1949 that he consid'ered to be of vital
importance. The flaws are described below along with the results
of our review. '

1.A LIGHTING INTENSITIES. The author of the allegations believed
lighting intensity was one of the most important parameters for
Magnetic Particle Inspection.     He referred to Rummel's work,
"Reliability of Non-destructive Inspection of Aircraft Engine
Components, January 1984,"'at Kelly Air Force Base and his own 30
years of experience to show that the black light intensity at th~
examining part's surface should be specified at 3000 uW/cm
(microwatts per centimeters squared) instead of 1000 uw/cm 2 •
1.A REVIEW COMMENTS. We found that the black light intensity of
1000 uW/cm2 is the minimum intensity required.    In establishing
the minimum requirements for black light intensities, a large
number of factors must be considered. An important factor is the
black-light-to-visible-light intensity ratio, since too great a
level of visible light will mask the fluorescence of the magnetic
particles.  This is, however, not the only factor.    The maximum
useful black light intensity is about 4000 uw/cm2 •      At this
level, ,the fluorescent dyes become, saturated, and a further
increase in black light intensity gives no increase in defect
visibility.   . As the black light intensity is increased, the
amount of black light reflected, into the observer's eye
increases, causing the eye itself to flUoresce, thereby reducing
the visibility of fluorescent indications.        Therefore   the
optimum value lies somewhere between 1000 and 4000 uW/cm i , and
the optimum value will depend on a large number of factors, the
three most important being:    surface reflectivity of the test
article, placement of the light source with respect to the
article, and'the inspector's visual acuity.
The American Conference of Governmental and Industrial Hygienists
has recommended that, for safety' considerations, the level of
intensity ~n the human eye and skin should not exceed
1000 uW/cm. MIL-STD-1949 is intended to provide guidance on the
minimum black light level.      However, MIL-STD-1949 does not
prohibit use of higher black light intensity, as long as the
proper precautions are taken to preclude health hazards.

We recommend that a statement be included in MIL-STD-1949
mentioning the use of higher than minimum black light intensity
and warning of the potential health hazard.




                              11
 1.B PARTICLE CONCENTRATION. The author of the allegations stated
 that, based on his own and many others' experiences, the best
 Magnetic Particle Inspection results occur when the wet particle
 concentration is less than .03 mL.      The number of particles
,available at the point of inspection should be consistent and
 maintained within    narrow   limits  for   the  method   to   be
 reproducible.   The current MIL-STD-1949 range of .01 to .04' mL
 was attributed to the objection by some manufacturers who did not
 want to change their procedures.
 1.B REVIEW COMMENTS. USAMTL personnel agreed that the number of
 particles should be consistent and maintained within narrow
 iimits.  However, the range is only a guide, and the individual
 users can specify a value in their test procedures based on their
 experience and need. The MIL-STD-1949 range of .01 to .04 mL was
 also attributed to the difficulty of maintaining wet particle
 concentration at a fixed value.
 The present allowable range of .01 to .04 mL is appropriate, but
 we recommend that a cautionary statement be included warning the
 inspector of the possibility of masking flaws when use of the
 upper level of the concentration is specified.

 1.C MULTIDIRECTXONAL    MAGNETIZATION.      The  author, of   the
 allegations indicated that state-of-the-art multidirectional
 magnetization equipment is readily available.     He mentioned a
 multiliirectional magnetization' machine that used- an adjustable
 magnetic yoke, rather than the coil that has been the standard
 device for many years, to produce the' longitudinal field.    The
 author indicated that by using the combination of proper
 multidirectional magnetization equipment and shims at critical
 spots on a test article, one can achieve much better and quicker
 results. The author alleged that MIL-STD-1949 did not attempt to
 take    advantage   of   the    state-of-the-art   equipment   in
 multidirectional magnetization, even though the state-of-the-art
 equipment offers higher probability of detecting flaws.

  1.C REVIEW COMMENTS.     The current multidirectional magnetization
'method is acceptable.      However, use of, existing equipment could
  require more time to perform multidirectional magnetization
  testing.    The shims serve, a very useful purpose in helping to
  establish the proper magnetization levels, since the shims follow
 't.he contour of a test article's surface anq. in many cases can
  produce better' defect detection results.      However, with proper
  care, the tester can achieve acceptable results without using
  state-of-the-art multidirectional magnetization equipment and
  shims.     USAMTL personnel have no objection to the Government
 'obtaining     state-of-the-art    Magnetic    Particle   Inspection
  equipment,    but   cautioned, that cost-effectiveness must      be
  considered.    The author of the allegations made a useful point1
  however, MIL-STD-1949 allows the individual user to select
  equipment and use of shims. We have no recommendation concerning
  this area.

                                  12
                              •
 1.D MAGNETIC FIELD STRENGTH.     The author of the allegations
 stated that the MIL-STD-1949 range of 30 to 60 Gauss field
 strength'is definitely menacing to the inspection of high-
 strength steels since the high field value will cause masking of
 the defect indication.   He maintained that a value of 5 to 15
 Gauss 'is usually ample for acceptable performance.     He also
 alleged that the 30 to 60 Gauss range is arbitrary, old, and
 lacks technical backup.
 1.D REVIEW COMMENTS.     We found the range of magnetic field
 strength given in MIL-STD-1949 is marginally helpful when the
 tester attempts to establish the proper magnetization by not
 using test parts but relying, on a gaussmeter alone.      If the
 magnetic field strength is too low, defects will not appear.  If
 it is too high, an obscuring background could form.   Therefore,
 selection, of the proper magnetic field strength depends on the
 tester's expertise.   If the tester finds that 30 Gauss is too
 much, MIL-STD-1949 allows the use of test parts to verify that
 lower levels of magnetization will meet acceptance requirements.
 A data base that gave minimum and maximum Gauss levels for each
 type of steel and heat treatment would aid in providing uniform
 test res~lts; however, such a data base is not available at this
 time. Recommendations under Observation Baddress this issue.
 1.E COATINGS. The author of the allegations indicated that since
 a coating on test articles can cause a requirement for greater
 magnetici field strength, over-magnetization (which tends to mask
 defects) is likely to occur. In order to achieve better results,
 use of a shim should be specified.
  1.E REVIEW COMMENTS.   We found that, in order to achieve best
  test-results, shims must be in intimate contact with the surface
- of the test article.   This is sometimes impractical because the
  coating adds a layer between the - shim - and the part's surface.
  Since Magnetic Particle Inspection is not a precise science,
  questions relating to shim calibration may be appropriate when
  use of a shim is specified in this situation.     Recommendations
  under observation B address this issue.

,1.F MATERIALS. The author of the allegations indicated that the
!{ETOS Ring is useful only for comparison purposes on magnetic
 particles and not for Magnetic Particle Inspection calibration.
MIL-STD-1949 references the !{ETOS Ring as a setup tool but does
 not indicate the type and material alloy composition of the ring.
!{ETOS Rings now being used give varying indications because no
 standard ring has been adopted.   Therefore, Table 1 in MIL-STD-
 1949 has no supporting data and should not be included.
1.F REVIEW COMMENTS.    According to USAMTL, the !{ETOS Ring and
Table 1 are necessary components of the specification.     It has
been known for some time that more holes can be detected on some
!{ETOS Rings than on others. However, the USAMTL position is that
this does not invalidate the usefulness of !{ETOS Rings in the

                                13
quali ty control of magnetic particles.          There are two
developments uhder way that. should improve this condition.   The
Society of Automotive Engineers is preparing an annealing
specification for the rings, which will reduce the current
variability experienced when using the. rings, and NIST is
planning to issue a test ring with calibrated leakage fields as a
standard reference.
The state-of-the-art in Magnetic Particle Inspection is weak in
dealing with the composition and the permeability of test
articles.   Several· experts have mentioned the need for a data
base for material alloy composition and permeability of different
kinds of materials..   In order to be meaningful, all the test
gauges (shims, Pie-field indicators, KETOS Rings, etc.) should
have a standardized permeability. . This is a weakness at the
present time, since no data base has been established.        Our
recommendation for Observation B, to do basic research, is one
way to alleviate this problem.

1,G OFFSET CENTRAL CONDUCTOR.       The author of the allegations
indicated that Figure 3 in MIL-STD-1949, which describes an
offset central conductor, has no theoretical basis for supporting
the st.atement. that the effective region of inspection is equal to
four times the diameter of the conductor.      Therefore, Figure 3
should be deleted. For a similar reason, Figures 4 and 5 should
also be deleted from MIL-STD-1949.
 1.G REVIEW COMMENTS.     USAMTL personnel acknowledged that the
·effective region of four diameters of the center conductor is not
 a calculated value. It is referred.to·in "Principles of Magnetic
 Particle In·spection," by carl Betz, which discusses Figure 3, but
 does not show how the value was obtained.       Recommendations of
 Observation A address this issue.

1.K USE OF FORMULAS.     The author ·of the allegations indicated
that paragraph·s 5.3.1. 4.1 through 5. 3 • 1. 4 • 4 should be deleted.
They present formulas for calculating ampere-turns to establish
p+oper magnetic field strength for testing. The problem with the
formulas is that they are basically rule-of-thumb calculations
that do not take into account the magnetic permeability of the
parts being tested and may result in overmagnetization.
1.K REVIEW COMMENTS.   According to USAMTL, use of the formulas
produce good inspections for parts of simple geometry. For parts
of complex geometry, the use of a gaussmeter or test parts with
known defects is more appropriate. The formulas could sometimes
give a magnetic field strength that produces excessive background
indications •  Recommendations under Observation A address this
issue.




                                 14
1.I USE OF TEST ARTICLES WITH DISCONTINUITIES. The-author of the
allegations pointed out that MIL-STD-1949 states "A reliable
method for inspection system verification is the use of
representative test articles containing defects of the type,
location, and size specified in the acceptance requirements." He
contended that the method is not possible since all defects that
are potential failures are rarely ,found iti. the same part.  He
suggested the use of properly configured test gauges (such as
shims) as a solution to the problem.
1.I REVIEW COMMENTS. We found that the use of test articles for
establishing written procedures is a valid method for assuring
reliable Magnetic Particle Inspection,' even though it is not a
problem-free one.     Shims can be used as valid gauges for
establishing the machine calibration but cannot always match the
real test article. A more meaningful way to test the validity of
a shim is to compare the ability to see defects on a real part to
the indication obtained on a shim. USAMTL personnel pointed out
the need to train inspectors to write test procedur!9s in this
method.   However, USAMTL does not believe it is appropriate to
use MIL-STD-1949 as such a training method.       Recommendations
under Observation B address this issue.

1.J DEMAGNETIZATION OF MAGNETIC PARTICLES.     The author of the
allegations indicated that MIL-STD-1949        section 5.7.4.1.1
suggests demagnetizing the magnetic 'test particles prior to
determining particle concentration by means of the settling test.
He believes if the particles have a residual magnetic field, they
are already defective and should be discarded.
1.J REVIEW COMMENTS.      USAMTL personnel indicated that the
particfes used in Magnetic Particle Inspection do not have zero
retentivity, and we found no test for retentivity of particles in
the requirements. USAMTL personnel stated that other means for
establishing particle concentration ~re allowed if their relation
to the settling test has been established. Recommendations under
Observation B address this issue.




                              15
                            ALLEGATION 2.
 The Government is ready to allow a flawed MIL-STD to be issued.
 REVIEW COMMENTS.     We reviewed USAMTL's internal procedures in
 issuing a MIL-STD.      The USAMTL personnel first sent out the
 proposed MIL-STD to industry and Government for comment.   After
 comments were collected and studied, USAMTL personnel called a
 meeting of the ASTM committee to discuss and vote on the issues.
 The comments voted favorably are incorporated into the next MIL-
 STD-1949 draft.    Many comments received from the author of the
 allegation· had been discussed as part of this process.
 USAMTL has the approval and issuing authority for MIL-STD-1949.
 MIL-STD-1949B is in the third draft, ·and there are some
 unresolveg issues;    There is no estimated publication date.
 USAMTL stated that the ASTM Magnetic Particle Inspection standard
 currently under development might be used instead, and MIL-STD-
 1949 may be canceled.
  We concluded that the procedure being followed by USAMTL would
  be reasonable and may eventually result in a good document being
  published. But, we take exception to the length of time that the
  proc.ess iii! taking and the potentialfoi:: errors in the inspection
  process that may occur until the document is corrected.          The
  original version of MIL-STD~1949 was released in 1985, the A
  version in 1989, and the B version has. been under consideration
  and has had three draft versions as of May 1991.         The changes
  that have been incorporated since the original version was
. released have been minor and did not correct the issues pointed
  out in this report.      Recommendations under Observations A and B
  address this issue.




                                 16
                               ALLEGATION 3.
    The author of the allegations stated that the Government
    organization responsible for MIL-STD-1949 does not have the
    facilities to validate the standard.     The Government does not
    have personnel. to validate or negate comments that may be
    received on Magnetic Particle Inspection. The Government has not·
    taken advantage of studies that can improve test reliability. He
    stated that this is based on his experience with Government
    personnel, years of observation, and knowledge about Government
    facilities.
    REVIEW COMMENT$. We found that there are two Magnetic Particle
    Inspection facilities at USAMTL. One is located in the Material
    Reliability Division, and the other is located in the Magnetic
    Pa.rticle Inspection scliool.  In addition to the facilities at
    USAMTL, the Magnetic Particle Inspection facility at NIST is also
    available for use. Based on our observation and discussion with
    responsible Government personnel, we determined that, although
    the equipment is not st~te-of-the-art, it is adequate to perform
    validation.    other private organizations have. helped in the
    validation· process even though they have no contract with the
    Government.
    DUring our visit to USAMTL, we were introduced to three Magnetic
    Particle Inspection exp·erts, all of whom are qualified at level
(   ~, the highest level in the profession.    .Part of their job is
    validation of comments received concerning Magnetic Particle
    Inspection and training new inspectors in the USAMTL Magnetic
    Particle Inspection school.     The NIST Metallurgy· Division is
    USAMTL's chief consultant and participates in validation.
    Minutes from several ASTM meetings showed that comments, relating
    to MIL-STD-1949, from the author of the allegations and others
    were dis6ussed and either were incorporated or rejected.      Based
    on O1,lr discussion, we l::>elieve the. Government has personnel to
    review the studies from various sources and to validate or negate
    any comments that may be. received.          However, since current
    knowledge on which Magnetic Particle Inspection is based is
    inadequate, we have recommended further study in recommendations
    under Observation B.




                                    17
                                •
                          ALLEGATION 4.

MIL-STD-1949B  as   written   should   result  in  a   75-percent
probability of detection of flaws with a 50-percent confidence
leveL This is not satisfactory to the author of ·the allegation.
He stated that the last version B had degraded to a point where
one could practically guarantee less than 50-percent average
probability of detection of flaws.   He believes that the average
probability of detecting flaws should be.in the range of 85 to
90-percent.
 REVIEW COMMENTS.   The proposed probability of detection and the
 confidence level are based on personal observations of the author
 of the allegations.    He did refer to a round robin test study
·conducted by the Air Force in 1973. that was reported in the
Gulley paper; "TM AFML/MX 73-5, AF Materials Laboratory, System
Support Division, Wright-Patterson AFB (Air Force. Base), OH."
The testing WCis conducted in accordance with Military Instruction
MIL-I-6868, which is the predecessor to MIL-STD-1949.          The
conclusion of the study was that the probability of detection of
flaws was about 47-percent. Twenty-four articles were tested at
Wright-Patterson AFB to establish the total number of flaws. The
test articles were then given to 11 manufacturers who performed
Magnetic Particle Inspection in accordance with their own test
.equipment and internal procedures.    The highest percentage of
flaws detected was 90-percent, and the lowest was l8-percent.
The average·was 47-percent. The study indicated that the state-
of-the-art knowledge was underapplied by all but one of the
participants.
USAMTL personnel indicated that if MIL-STD-1949 has raised the
probability of detection from 47-percent to 75-percent, something
significant has been accomplished.   The USAMTL position is that
a probability of detection cannot be established in any
reasonable way for the standard as a whole.     USAMTL personnel
stated ·that probability of detection is more appropriately
determined in relation to a specific written test procedure
applied to a specific part.
MIL-STD-1949 is useful only as a guideline.    It   is up to each
acceptance test organization ·to develop its own     internal test
procedure and acceptable probability of detection   for a specific
part. Recommendations under Observation B address   this issue.




                              18
                          ALLEGATION S.

The Government will issue MIL-STD-1949B, which will be           a
consensus document, but not a well-prepared military document.   A
well-prepared.military document can serve the DoD better.
REVIEW COMMENTS.  Both the author of the allegations and USAMTL
agreed that MIL-STD-1949 is     a  consensus document.    USAMTL
personnel acknowledged that use of MIL-STD-1949 does not ensure
that a precise probability of detection will be measured and
achieved, but stated that it is the best that can be done with
the present knowledge. USAMTL also pointed out the difficulty of
working out a consensus among all interested parties. USAMTL is
planning to participate in generating a new commercial standard
that will be formatted for art ASTM Magnetic Particle Inspection
ballot. If the new document is acceptable to theASTM community,
a commercial Magnetic Particle Inspection standard will replace
MIL-STD-1949.
While the process being used by USAMTL for updating and improving
MIL-STD-1949 may eventually result in a document that is without
problems, the      rate that changes are being incorporated has
proved to be extremely slow.        until the recommendations to
·Observation B ar~ completed and incorporated, the commercial
 standard will be equivalent to and not a major improvement to the
existing MIL-STD.
                         ALLEGATION 6.

Government personnel are compromising severely with people that
have no experimental dat<;l to support their position.   USAMTL
personnel have given in to political pressures.
REVIEW COMMENTS.  USAMTL and NIST personnel indicated that most
of the data contained in MIL-STD-1949 is backed up by scientific
journals but admitted that some of the.data in MIL-STD-1949 are
residual from the original document.
The Government intention was to improve the document gradually.
When the new MIL-STD-1949 revision is published, in accordance
with our recommendations, many disputed areas will be addressed.
After reviewing the procedures being fOllowed by USAMTL
personnel, we saw no evidence of political pressure on them
regarding the contents of MIL-STD-1949.




                             20
 APPENDIX A: . LETTER·FRoM·cONGREssMAN:DAvI6:DREIER
                 .                "        .




                      ~ongrt~i of tbt 1HnftdJ 6tatt~
                          "DUlt of £tpnJtntatibtf
                           . lIullingt.on. . , 20515
                                July 26, un



HI. SUlan Crawford
Inlpector General
Depart=ent of Defense
400 Army Navy Drive
Arlington, Virginia 22202
Dear Susan:
     'l'he attache~ communication frolll my eonstituent is sent for
your consioeration. Please investigate the s.tatements containeo
therein ano forward me the necessary information for reply,
returning the enclos~ correspondence with your answer. Please
~rk the materials to the attentiory of Doug Riggs.

     'l'hank you for your time ano


                                                                   •

                                           Da       Dreier
                                           Mem~er    of Congress
DO :or
Enclosure




                                      21
                       _ " "_ _ 001 _ _ 01 _ _
22
APPENDIX B: MANAGEMENT COMMENTS FROM DEPARTMENT.OF THE ARMY
                          DEPARTMENT OF THE ARMY
                       , OFFICE OF TH'E ASSIST ANT SECRETARY
                              WASHINGTON, DC 20310-{)103




       SARD-DE                                                     June 22, 1992


       MEMORANDUM   ~OR   CHIEF, OPERATIONS DIVISION, ATTN SAIG-PA,
                            OFFICE OF THE INSPECTOR GENERAL
       SUBJECT:    Draft Report on the Inquiry on Magnetic
                   Particle Inspection for Non-Destructive
                   Testing (2PT-5001)

            I reviewed the subject report and the Army Materiel
       Command (AMC) position on its disposition. I concur
       with AMC's response and proposed corrective actions to
       the allegations .
           . My point of contact is Robert Jordan, 703-695-3515.




                               ~
                                             ,                 .

                             S P    R. Burdt
                     Director or Program Evaluation




                                      23

                                  •
 APPENDIX B: MANAGEMENT COMMENTS FROM DEPARTMENT OF THE ARMY (Cbnt'd)



           AEPlYTO
           ATmmOIIOf




AMCIR-A     (36-2b)                                              12 June "1992

MEMORANDUM FOR HQDA(SAIG-PA) WASH DC 20310-1700
SUBJECT: DODIG Draft Report, Inquiry on Magnetic Particle Inspection for Non-
Destructive Testing (AMC No. D9235)

1. We are forwarding the position on subject report IAW             ~   36-2.    We concur
with actions taken or proposed by LABCOM.
2.     Point of contact for this action is Mr. Robert Kurzer, 703/274-9023.

3.     AMC -- America's Arsenal for the Brave.


                                            J \ ,',a.,:,.,.. S   ,J\1~,JkJ1
Enel                                        'CIfLLIAM B. "McGRATH
as                                           Major General, USA
                                             Chief of Staff




                                       24
APPENDIX B: MANAGEMENT COMMENTS FROM DEPARTMENT OF THE ARMY (Cont'd)
                          DEPARTMENT OF THE ARMY
                      HEADQUARTERS, U.S. ARMY LABORATORY COMMAND
                       2800 POWDER MIL.L. RD.', ADELPHI. MO 20783-1 t4!5


       REPLY TO
       ATTENTION OF

AMSLC-IR       (36-2b)                                                     2 June 1992


MEMORANDUM FOR Commander, U.S. Army Materiel Command,
                . ATTN: AMCIR-A, 5001 Eisenhower Avenue,
                  Alexandria, VA 22333-0001
SUBJECT: Draft Report on the Inquiry on Magnetic Particle
Inspection for Non-Destructive Testing (Project No. 2PT-5001)

1. Reference memorandum, Department of Defense Inspector
General, 16 Apr 92, SAB ..
2. The subject report has been reviewed by responsible personnel
at the U.S. Army Materials Technology Laboratory and at this
Headquarters. Our response and proposed position on observations
A and B in the report are at enclosures 1 and 2 •



2 Encls                                   .(rJI'p~ J~          KELLY
                                                Major General, USA
                                                COl1lll\anding
CF:
AMSLC-AT (Mr. Zastrow)
SLCMT-D
SLCMT-MEE
SLCMT-IR




                                           25
 APPENDIX B:" MANAGEMENT COMMENTS FROM   DEPARTME~T   OF THE ARMY (Gont'd)
                                                         "     "




                         PROPOSED COMMAND REPLY
                DODIG Draft Report Project No. 2PT-5001
               Inquiry on Magnetic Particle Inspection                       (
                      for Non-Destructive Testing

Observation A: The published version of MIL-STD-1949 contains
problem areas. The problem areas were due to lacft of rigorous
oversight, acceptance of rule of thumb criteria without
reservation by" the Magnetic Particle Inspection community, and
non-rigorous calculation of some of the formulae. Use of the
present version of MIL-STD-1949 without understanding that the
illustrations and formulae are only approximations, useful for
initial establishment of magnetization levels, could lead to
failure in the detection of flaws in the test articles. Test
results may not show all detectable flaws since the proper
application of the present standard depends on training of the
writers and users of the test procedures.
RECOMMENDATIONS AND COMMAND COMMENTS

Recommendation 1: We recommend that the"Commander [Director],
USAMTL immediately issue anaddehdum to MIL-STD-1949 highlighting
the above areas and alerting the user community to potential
problems with use of the illustrations and formulae, when they do
bot apply, that could lead to erroneous test results.
Action to be Taken: Concur-in-principle. MIL-STD-1949A is in
process of cancellation and its replacement document E1444 has
been issued by the American Society for Testing and Materials
 (ASTM). Revisions, which cover the problem areas: oversight,
effective region of inspection and non-rigorous calculation, in
the draft report, will be s.ubmitted by MTL personnel to the ASTM
meeting concerning this document on 15 June 1992 for society
ballot for incorporation into a second revision of ASTM E1444.
The current proposed revision of ASTM E1444-91 has already passed
the ASTM subcommittee ballot. Incorporation of the revisions is
expected to be accepted without delay. "bhould MIL-STD-1949A not
be promptly cancelled, an addendum to the standard will be issued
as outlined in the enclosure.
Recommendation   2: We recommend that the Commander [Director],
USAMTL replace   the above illustrations and formulae with the
correct method   of calculation for the effective area of
inspection and   the correct magnetization levels when the
necessary work   has been done to c9rrect the problem areas.
Action to be taken: Concur-in-part. The method of calculation
is the best available; however, once the pertinent research
covered by OBSERVATION B is completed, revised illustrations and
formulae will be submitted to the ASTM correcting/changing the
method of calculation for the effective area of the inspection
and magnetization levels for incorporation in ASTM E1444.

                                         26
                           ...   '   "

APPENDIX B:- MANAGEMENT-COMMENTS-FROM-DEPARTMENT-OF THE ARMY (Cont'd)


                                         Propoled Add.ndum
 Th. tollowini leetion sbould be added to .11 copies of Mlt-STP-194'A
 it not cancelled ill .. tilDely fll8h1on.


 6.3 • Precaution. and clarifications.
  6.3.1 On of U'1'09 ring. %t 18 not t.he intention of 5.7.-3 that the JI:!:'1'OS
 tool .teel r1ng d.tail.d in figure 1, or the IIl&gn.tl.c field indicatou_ of
 f1Vllr .. 6 and 7, be \I.ed to cllibrate a .. t.up. Magnetic fleld indicatou
 .houleS bt u.ed only a.-quality control tool •• Tb. 1!:'1'OS ring .hould be u.od
 only to qullify »agn.t-to partiel! ~ater1al ••
  6.3.2 affect1? re;ion of 1n'pection. Th. eff.ctivo r.gLoll8 ot 1nlpection
- .hown in figurt' 3~ 4, and 5 Ire only rough vuid... Tht .ftective reg10n of
  in.pecUcn abould be verified for each apocUiC part.
6.3.3 D.e of formulae, Tht formulae of 5.3.1.4.1 through 5.3.1.4.4 apply
only to .impl. geOJDetrie.. Por complex i.omttri •• tht formulae provide only a
rough guide and the_actual current llvel. u.ed .bould be verified by other
.,tbod.. OIrt .hould be tlktn th.t u•• of the formula. eSoe. not r •• ul: in
over-mlqnetizltion whicb could milk important indication••
6.3.4 Probability of dtttction Ind proper Ipplicat1on. No probability of
flail detection baa been allLgned to _thi. at'l\darCl. Tbe proper applicaUon of
this .tandard depends on trainin9 of the writer' and Ullr. of the tt.t
proc.duU8.




                                               27
APPENDIX B: , MANAGEMENT COMMENTS FROM DEPARTMENT OF THE ARMY (Cont'd)

                       PROPOSED COMMAND REPLY
              DODIG Draft Report Projeot No. 2PT-5001
            Inquiry on Magnetio Partiole Inspection for
                       Non-Destruotive Testing


Observation B: The Magnetio Partiole Inspeotion field requires
more researoh to make MIL-STD-1949 a definitive dooument. While
it is definitive oonoerning the requirements for prooedures used
to perform Magnetio Partiole Inspeotion, the requirements for
quality oontrol, the manner in whioh reoords are to be kept, and
the way in whioh inspeoted parts are to be identified, it,does
not address nor referenoe limitations inherent in applioation of
Magnetio Partiole Inspeotion based on MIL-STD-1949. Beoause no
study has ever been undertaken to determine the effeotivity [sic)
of MIL-STD'-1949, applioation of the standard may result in a wide
differenoe in the probability of deteotion of flaws.
RECOMMENDATIONS AND COMMAND COMMENTS
Reoommendation 1: We reoommend that the Commander [Direotor),
USAMTL, in oonjunotion with the National Institute for
Standa'rdization and Teohnology prepare a prioritized list of the
eight identified researoh efforts, oonduot the neoessary
researoh, and develop an improved stan,dard that will enhanoe the
understanding of and implement a preoise soientifio approaoh to
the Magnetio Partiole Inspeotion field.
Action to be Taken: Concur-in-part. MTL, in oonjunotion with
the National Institute for Standardization and Technology, has
prioritized the list of eight identified researoh efforts
reoommended in the report (see enolosure). The researoh projects
that were oompiled by NIST constitute important work needed to
improve the theory and understanding of magnetio partiole
inspeotion; however, there is no guarantee that this work will
improve the probability of Deteotion which is the key to
sucoessful testing. MTL oannot consider this research as "near
teL'l!l" effort. Most of the researoh will require the long term
oommitment of highly trained-personnel. The ourrent testing
prooedures outlined in MIL-STD-1949A or ASTM E1444-91 are
satisfa,otory for most users. Additionally, MTL has reoeived no
reports of any faiiures traoeable to errors or laok of olarity in
MIL-STD-1949. Responsible MTL personnel f,eel that the proposed
researoh'should be a,ooomplished on a time available, funding
available basis, and extend over several years. The proposed
projects are oertainly no more important that many other projeots
in other fields being worked on by MTL personnel. Sinoe new '
funding will be required, MTL will estimate the levels of funding
and durations needed for this researoh and forward those to the
U.S. Army Laboratory Command for funding oonsideration by
31 July 1992.



                                     28'
APPENDIX B:' .-MANAGEMENT'
                     ..
                           COMMENTS'
                                .. .
                                     FROWDEPARTMENT'OF.':JHEARMY
                                                 ..      . ..  ,
                                                                 (Cant I d)

Recommendation 2: We recommend that the Commander, U.S. Army
Laboratory Command, identify funding for the research efforts
necessary to improve MIL-STD-1949.
Action to be taken: . concur-in-principle. Upon receipt of the
MTL estimate of the levels of funding and durations needed for
the research to make improvements in ASTM E1444 (MIL-STD-1949),
the U~S. Army Laboratory Command will consider whether or not to
fund this research within the overall context of dur laboratory
priorities.




                                        29
  APPENDIX·B:··MANAGEMENT·COMMENTS·FROM·DEPARTMENT·OF·THE'ARMY (Cont'd)

 R•• eatcb ar ••• 1n order of priority. Tne highe.t priority i. 1lat.d firat.
                                           "
 1. Effect of part magnetio proptrl:ie.1 Dtyelop method, for relating magn.tic
 propertieD to de fecI: det.ctabl1ity~ Produce a data ba •• giving the .. gn.tic
 propert! •• of .t.,l, II • function of oompo.itlon.and therm~ech.nical
 tre.tment and the ••gn_ti'ltion level. r.quired on .ach to ,,_t viven
 acceptance crIteria. ~e only cutrent requir-=enl: ie that ~rt. be
 hrroaagneUc:. Thie 1s not .ufflc:ient. Required malJnlt.l..eUon levels depend
 on .-ny detail. of tbe ferromagnetic properti •• , and .051 ferromagnetic
 aattrial. cannot be effectively in'ptcteCl ua1ng IG'%.
 2. Performance eeanClard. tor abima: Develop Improvtd metboda for
 characterizing magnetic: partIcle ebima u,ing performance Itandards.
 3. Kethod' for mealurement of tangential f1eldll investigate the uee of aall
 probe. to meullre both fielCl in·tenll.t:t and c!inct1on under dynaillic conditionl.
 O.e this a. a Beanl to apecity magnetization levela, direction, and waveforllll,
 for 8e, Clc, InCl multi-c5irectional l114;ntti.ation teChnique ••
 4. Acceptance requirementel    Provic!. imprcvec! guideline. to   II ••   for acceptAnce.
 requir ..."u.
5. Mecbani.~ of magn.tie particle inc!ication formation: Perform func!amentll
'tudie' on how the leakagt field, partiCle ,ize and .hap., bia. fielda, and
particle and part ·reuntiyity, interact to form anc! hole! magnetic particle
1nc!icltion' in place.
6. Maqnetic particle lIIattrial.: PlYelop improved and reliable methpda for the
charlcterilation of I114gnetic particle lIIateria18. Kake th •• e, to the gi.ate.t
eJtent PQ.8ible, perforlll4nee specificaticn.. ror .X.~l" one defect in the
current ~thOd' for qual1f:ting partiele, i. that floure.cent brightnes. in not
chtckec! unCl,r·,tlndard condition ••
7 •. Iffect.of 8urfa~~ condition: P1Velop Ie thode for 'pecifying the lutflc.
condition needed to m•• t a ran9* of acceptance criteria. The detection
thre.bold of MPI ..,111 vat:t .ignificantly witb tbe .ueflcetuture. The
general requirement that the .urfacI be "ullntially 'JDCO.th, c:lean, dry, and
frtt of oil, Icall, or othe' c:ontaminanta' i. not a SUfficient precaution.
~i' is .. pec1llly crucial tor wild in.pecHon. Surface condition allo
affecta Whetbe, or not ehill\l can bo eff.ctiv.l:t ·u•• d to eatabltah oorrect
.. glleUution.
e. O.e of cOlllputer technique. to lpeeify magn.tilltion methoda: rintte
element .nal:t.is i. currently developed to the .tlge whe,., vhen coupled With
• datail_" knowledge of ·.. terial .. gn_t1c properti'" it could be u.ed to
calCUlate a correct magnetization metbod for a part of any geo~try.
llleitPtnlivl prOllra,1I\I wbicb run on plnon&1 COIIputera .hould be peuible.




                                      30
APPENDIX C:    REPORT DISTRIBUTION



Office' of the Secretary of Defense
Under Secretary of Defense for Acquisition
Assistant Secretary of Defense (Production and Logistics)
Comptroller of the Department of Defense
Director, Defense Research and Engineering
Department of the Army
Secretary of the Army
Inspector General, Department of the Army     .
Assistant Secretary of the Army (Installations and Logistics)
Assistant Secretary of the Army (Research, Development and
  Acquisition)
Commander, U.S. Army Material Command
Commander, U.S. Army Laboratory Command
Non-Defense Activities
Office of Management and Budget
U.S. General Accounting Office, NSIAD Technical Information
  Center
Congressional Committees:
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
S~nate Committee on Governmental Affairs
Senate Ranking Minority Member, Committee on Armed Services
Hous~ cqmmittee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Ranking Minority Member, Committee on Appropriations
House Committee on Armed Services
House Committee·on Government Operations
House Subcommittee on Legislation and National Security,
  Committee on Government Operations
Congressman David Dreier, House of Representatives




                                31
MAJOR CONTRIBUTORS TO THE MAGNETIC PARTICLES INSPECTION
INOUIRY

Kenneth H, Stavenjord, Director, Technical Assessment Division
Jacob Rabatin, Project Manager
Wei Kuo Chang, General Engineer
Greg Donnellon, Logistics Management Specialist
                I
                j
            ,




            I
            I




(




        I
    I
    I
    I
